                                      REPORT ON
                  INDEPENDENT EVALUATION AND ASSESSMENT OF
                  INTERNAL CONTROL FOR CONTRACT OVERSIGHT

                                SUBMITTED TO THE
                    U.S. SECURITIES AND EXCHANGE COMMISSION
                           OFFICE OF INSPECTOR GENERAL




Cotton & Company LLP
Auditors  Advisors
333 North Fairfax Street, Suite 401
Alexandria, Virginia 22314
(703)836-6701
www.cottoncpa.com
June 25, 2004

Mr. Walter Stachnik
Inspector General
U.S. Securities and Exchange Commission
450 Fifth Street, NW
Washington, DC 20549

Subject:        Independent Evaluation and Assessment of Internal Control for Contract Oversight
                Task Order No. SECJQ1-03-D-0175 (September 24, 2003)

Dear Mr. Stachnik:

In accordance with terms of the subject task order, Cotton & Company LLP performed an independent
evaluation of the U.S. Securities and Exchange Commission’s internal control over contract management
oversight of its customer service agreements with the Millennium Services Center (MSC) at the U.S.
Department of Transportation (DOT) for services provided by Science Applications International
Corporation (SAIC). The evaluation included review of management procedures and practices established
to implement federal procurement, acquisition, and contract laws and regulations and the Commission’s
own procurement regulations and policies.

This evaluation focused on 1) the Commission’s management controls used to obtain information
technology (IT) support services through customer service agreements with MSC from November 2001
through April 2003 under Commission Contract No. SECHQ1-00-H-0239, and 2) a review and
assessment of all task orders issued from February 2000 through December 2003 and MSC invoices
submitted through the U.S. Treasury’s Interagency Payment and Collection (IPAC) system.

We identified specific control weaknesses and deficiencies and developed recommendations designed to
improve contract management oversight functions and procedures. We conducted the evaluation in
accordance with Government Auditing Standards, as revised. We were not engaged to, and did not
perform a financial statement audit, the purpose of which would be to express an opinion on specified
elements, accounts, or items. This report is intended to meet the objectives described above and should
not be used for other purposes.

Please call me at (703) 836-6701 if you have questions.

Very truly yours,

COTTON & COMPANY LLP




Michael W. Gillespie, CPA, CFE
Partner
                                     CONTENTS

Section                                         Page
Executive Summary                                  1
Scope, Objectives, and Methodology                 2
   Scope and Objectives                            2
   Methodology                                     2
Background                                         4
Evaluation Results                                 5
   1. Task Orders                                  5
   2. Management Fees                              6
   3. Invoice Certification                        6
                                         REPORT ON
                    INDEPENDENT EVALUATION AND ASSESSMENT OF
                    INTERNAL CONTROL FOR CONTRACT OVERSIGHT

                                  SUBMITTED TO THE
                      U.S. SECURITIES AND EXCHANGE COMMISSION
                             OFFICE OF INSPECTOR GENERAL


EXECUTIVE SUMMARY

The Office of Inspector General (OIG), U.S. Securities and Exchange Commission, contracted
with Cotton & Company LLP to perform an independent evaluation of internal control over
contract management oversight of the Commission’s customer service agreements (task orders)
with the Millennium Services Center (MSC) located at the U.S. Department of Transportation
(DOT) for services provided by Science Applications International Corporation (SAIC). The
evaluation included a review of management procedures and practices established to implement
federal procurement, acquisition, and contract laws and regulations and the Commission’s own
procurement regulations and policies.

We conducted this evaluation from September 2003 to March 2004 in accordance with
Government Auditing Standards, as promulgated by the Comptroller General in the "yellow
book” for performance audits, and AICPA standards for consulting services. We also adhered to
all relevant federal and Commission guidelines.

For the time period covered by our review, the Commission did not establish adequate controls
for obtaining information technology (IT) support services using a customer service agreement
with MSC. Commission officials indicated that the controls were improved during the course of
the contract, including improvements made subsequent to our review period.

The Commission elected the option to have MSC maintain direct contract authority,
administrative responsibilities, and contract management control over SAIC’s performance.
However, this arrangement did not meet the oversight needs of the Office of Information
Technology (OIT), the office using SAIC’s (and its subcontractors’) services.

We noted specific control weaknesses over contract management oversight functions and
procedures with respect to the MSC customer service agreements, including:

1. Commission task orders were not sufficiently detailed to fully describe the Commission’s
expectations and the oversight responsibilities of the MSC and the Commission.

2. MSC applied a management fee on SAIC invoices before sending them to the Commission.
The Commission’s Contracting Officer’s Technical Representative (COTR) stated that the COTR
was unaware of the amount or basis for the fees.

3. The Commission’s COTR certified invoices without sufficient supporting documentation. The
Commission may have been billed labor costs for employees who did not work on Commission
tasks. This weakness relates to the decision to have MSC be responsible for contract
administration. OIT technical staff did not clearly understand the limitations on their
administrative duties under the contract.


                                               1
We are recommending enhancing the Commission’s existing policies and procedures and COTR
training to improve the controls over task orders under customer service agreements with other
federal agencies.

SCOPE, OBJECTIVES, AND METHODOLOGY

Scope and Objectives

The Commission’s OIG contracted with Cotton & Company LLP to perform an independent
evaluation of its internal control over contract management oversight of the customer service
agreements with MSC. The evaluation included review of management procedures and practices
established to implement federal procurement, acquisition, and contract laws and regulations and
the Commission’s own procurement regulations and policies.

This evaluation focused on 1) the Commission’s management controls used to obtain IT support
services through customer service agreements with MSC from November 2001 through April
2003 under Commission Contract No. SECHQ1-00-H-0239, and 2) a review and assessment of
all task orders issued from February 2000 through December 2003 and MSC invoices submitted
through the U.S. Treasury’s Interagency Payment and Collection (IPAC) system.

The evaluation covered key phases of contract oversight processes for initiating and issuing task
orders; modifying task orders; obligating and controlling funds; monitoring contractor activities;
and assessing contractor performance. The evaluation also included review of controls established
to protect the Commission from waste, fraud, and abuse by ensuring that only authorized work is
performed, work performed is within the scope of the contract, and task-order deliverables are
met. The evaluation also covered the Commission controls used to certify vendor payments
processed through IPAC. This includes activities of the COTR and Contracting Officer (CO)
from the time a task order was issued and executed. The evaluation did not include pre-award
functions and activities.

The evaluation objective was to determine the adequacy, effectiveness, and sufficiency of
controls to validate and verify that:

        •       All work performed by SAIC was authorized.

        •       Work performed by SAIC was within contract and task-order scope.

        •       Task orders were within the scope of the contract.

        •       SAIC and MSC invoices submitted to the Commission through IPAC were
                accurate, complete, and allowable.

Methodology

To achieve the evaluation objectives, we obtained, compared, and assessed applicable federal
laws, regulations, and guidance governing federal agency acquisition of information technology
and services to the Commission’s contract oversight policies, procedures, and practices. We also
reviewed relevant Commission, DOT, and SAIC financial records and documents supporting
invoices to the Commission. This included tracing the Commission’s task-order requests to MSC
to support its work authorizations issued by MSC to SAIC. Further, we traced SAIC invoices


                                                2
submitted to MSC to documents supporting the transfer of funds from the Commission to MSC in
the IPAC system.

We also performed the following:

       •       Interviewed relevant Procurement and Contracting Branch (PCB) and Office of
               Information Technology (OIT) officials and staff and Department of
               Transportation (DOT) and MSC officials.

       •       Gained an understanding of the Commission’s contract oversight processes and
               procedures and relevant Securities and Exchange Commissions Reviews (SECR)
               in place during the evaluation period and changes occurring within the past two
               years.

       •       Gained an understanding of the PCB and OIT organizational structures and
               operations.

       •       Conducted tests of customer service agreements (task orders), management
               oversight controls for issuing tasks, oversight and monitoring of contractor work,
               work assignment, and invoice certification.

       •       Compared the Commission’s controls to those it used under similar agreements
               with other federal agencies.

       •       Assessed PCB and OIT processes and procedures used to modify task order
               requests issued through customer service agreements.

We conducted this evaluation from September 2003 to March 2004 in accordance with
Government Auditing Standards, as promulgated by the Comptroller General in the "yellow
book” for performance audits, and AICPA standards for consulting services. We used the
following federal and Commission established guidelines as criteria for this evaluation:

       •       Federal Acquisition Regulation (FAR).

       •       A Guide to Best Practices for Contract Administration, October 1994, issued by
               the Office of Federal Procurement Policy (OFPP).

       •       Federal Acquisition Streamlining Act of 1994 and other relevant legislation and
               promulgated guidance.

       •       Office of Management and Budget (OMB) Circulars A-127, Financial
               Management Systems, and A-123, Management Accountability and Control.

       •       Applicable Commission procurement and contracting regulations, policies,
               guidance.




                                               3
BACKGROUND

Since February 2000, the Commission has issued a series of task orders under the customer
service agreements with MSC (issued under Commission No. SECHQ1-00-H-0239 and
modifications). The purpose of these task orders was to obtain IT services from SAIC through
MSC.

The MSC is a component of the DOT, and the customer service agreement was issued under
MSC’s Government-Wide Acquisition Vehicle (GWAC) known as Information Technology
Omnibus Project (ITOP). ITOP is a multiple-award, indefinite delivery, indefinite quantity,
contract vehicle designed to provide federal agencies with a fast and efficient way to obtain IT
technical services, hardware and software.

Customer service agreements and the related agency task orders are similar to contracts in that
they specify an agency’s expectations, responsibilities, duties, and authorities, as well as provide
a statement of work, list of deliverables, invoicing procedures, supporting documentation, and
reporting procedures. Depending on the complexity and nature of work covered, the agreements
may be large, formal documents describing all requirements or less formal reimbursable
agreements.

PCB (within the Office of Human Resources and Administrative Services (OHRAS), formerly
the Office of Administrative and Personnel Management), and OIT are responsible for issuing
task orders and performing contract oversight activities. Specifically:

        •       PCB is responsible for purchasing and contracting for goods, services, supplies,
                and equipment. It also is responsible for performing a variety of contract and
                procurement activities including determining the appropriate type of contract for
                services needed, and reviewing statements of work and justifications for other
                than full and open competition.

        •       OIT is responsible for developing and maintaining the Commission’s IT
                infrastructure and developing the IT security program, policies, and procedures.
                OIT responsibilities include daily management of support functions for systems
                and IT services, software development and maintenance, network and data
                communication design and maintenance, design engineering and oversight of the
                IT architecture, and configuration management and quality assurance group
                management. OIT is responsible for writing statements of work and initiating
                (when applicable) justifications for other than full and open competition.

From February 2000 through December 2003, the Commission awarded 95 tasks with a total
obligation of $29,255,686. From November 2001 through April 2003, the Commission awarded
43 task orders with a total obligation of $10,918,699. During this period MSC’s fee structure was
based on a percentage of costs (e.g., 10 to 15%) as well as direct charge amounts.




                                                  4
EVALUATION RESULTS

The following is a discussion of the findings that we noted during our evaluation and
recommendations designed to improve contract management oversight procedures.

1.      Task Orders

Commission task orders to the MSC provided some information, but were not sufficiently
detailed. Additional information would have better:

        •       Defined the Commission’s expectations.

        •       Clarified and specified Commission and MSC contract oversight duties and
                responsibilities for SAIC.

        •       Identified deliverables.

        •       Defined reporting requirements.

        •       Specified invoicing procedures.

        •       Clarified the agreed-upon MSC management fees and fee basis.

        •       Specified the types of contracts available to the Commission through the ITOP
                contract with SAIC.

The importance of clarifying respective roles (especially in a complex arrangement involving two
federal agencies and a contractor) was shown by an issue arising repeatedly during the contract.
OIT technical staff questioned numerous invoices submitted by SAIC through the MSC. The
technical staff felt the invoices were not sufficiently detailed and did not adequately support the
costs claimed (see the finding on certification of invoices, below). OIT technical staff did not
clearly understand the limitations on their administrative duties under the contract, since the
Commission was paying MSC to be responsible for contract administration.

In June 2004, the General Services Administration (GSA) and DOT entered into an agreement
that moved ITOP to GSA. Additionally, DOT announced that no new task orders or modifications
to existing tasks would be accepted by DOT for ITOP and that all existing work would cease on
September 30, 2004 (later extended to December 31, 2004). As a result of these actions, we are
not making recommendations relating to modifications of existing task orders to MSC. Our
recommendation relates to better defining future task orders.

        Recommendation A:

        The Office of Human Resources and Administrative Services should revise its existing
        policies and procedures to help ensure that task orders under GWAC-type vehicles
        clearly describe the services being requested, management fees, deliverables,
        performance period, invoicing procedures, and other required information.




                                                  5
2.      Management Fees


During the period of our evaluation, MSC invoiced the Commission for $11,566,646; of this
amount, $10,428,199 was for SAIC’s services, and $1,138,447 was for management fees.
MSC management fees were a combination of percentage of costs (ranging from 10 to 15
percent) and direct charges.

Although the Commission’s task orders contained a line item for an MSC fee, none of the task
orders disclosed either the fee amount or percentage. We identified the management fee only by
reviewing documentation maintained by MSC in its contract files. The Commission COTR was
unaware of the amount of the fees or how they were derived.

        Recommendation B

        The Office of Human Resources and Administrative Services, in consultation with the
        Office of General Counsel and the Office of Financial Management, should submit a
        written request to MSC asking it to review whether the fees billed to the Commission
        were consistent with the fee structure in the ITOP contract.

3.      Invoice Certification

MSC submitted SF 1081s and billing statements as support for reimbursement against
Commission funds held at Treasury. The Commission received SF 1081s showing dollar amounts
transferred by Treasury from the Commission fund account to MSC.

For instance, in January 2003, Treasury transferred $438,429 from the Commission to MSC
under the contract; accompanying this document was MSC’s Invoice No. 40. The MSC invoice
included the primary account number, secondary account code, description of service, current
hours by account code, and monthly charges incurred during the period November 9 through
December 6, 2002. The invoice did not include timesheets or other information to confirm that
hours billed were actually worked by SAIC personnel.

The COTR (assisted by the OIT technical staff) was required to certify the charges or take
exception to the billing. The OIT technical staff repeatedly raised questions about the amount of
the invoices and how they were derived. OIT verbally requested that MSC provide a detailed
breakdown of the labor hours for each task order. MSC was unable to accommodate this request
because it did not have this information, but the COTR certified the invoices anyway (so that
SAIC would continue to provide services under the contract).

Under the MSC contract, the DOT COTR was responsible for the accuracy of SAIC billings, as
part of DOT’s contract administration duties (which the Commission paid for in its fee).
However, OIT staff did not clearly understand this contract provision (in part because of staff
turnover in OIT, according to PCB).

During our review of SAIC invoices at MSC, we inquired of MSC and DOT personnel about
whether any detailed supporting documentation, such as timesheets or a listing of names of SAIC
personnel and subcontractors that worked on Commission tasks, accompanied the invoices. We
were informed that they did not have this documentation, and that it would have to be obtained
directly from SAIC.



                                                6
During the evaluation, we obtained a list of personnel from SAIC who charged hours against the
various MSC task orders for work performed at the Commission. We submitted the list to
individual OIT task managers for confirmation and verification. We specifically asked the task
managers if they knew the individuals and if they knew the individuals had worked on the
specific tasks for which the hours were billed. From this test, we determined that the task
managers could not verify 25,021.75 hours worked by 41 SAIC personnel invoiced at $961,081.

Given the circumstances described above, an audit of the timesheets and other documentation
supporting the invoices appears appropriate.

       Recommendation C

       The Office of Human Resources and Administrative Services should require COTRs and
       related technical staff to attend refresher training once every three years on contract
       administration (including certifying invoices).

       Recommendation D

       The Office of Human Resources and Administrative Services, in consultation with the
       Offices of Information Technology, General Counsel and Financial Management should
       request that the Defense Contract Audit Agency (the cognizant audit agency for SAIC)
       perform an audit of specified task orders under the MSC customer agreement.

       Recommendation E

       The Office of Information Technology should develop appropriate procedures for its
       COTRs to follow in certifying contractor invoices.

       OIT indicated that it will develop procedures that OIT COTRs are to follow when
       certifying contractor invoices. These procedures will be based on SECR 10-15:
       Contracting Officer’s Technical Representative (COTR) and Inspection and Acceptance
       Official (IOA), dated November 4, 2004.




                                               7
